   January 23, 2004




Acquisition

Implementation of the DoD
Management Control Program for
Army Category II and III
Programs
(D-2004-047)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

APB                   Acquisition Program Baseline
C4I                   Command, Control, Communications, Computers, and Intelligence
MDA                   Milestone Decision Authority
OMB                   Office of Management and Budget
ORD                   Operational Requirements Document
TEMP                  Test and Evaluation Master Plan
          Office of the Inspector General of the Department of Defense
Report No. D-2004-047                                                    January 23, 2004
   (Project No. D2003AE-0051)

        Implementation of the DoD Management Control Program
           for Army Acquisition Category II and III Programs

                                 Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
are involved in the Army acquisition decision making process should read this report
because it provides an assessment of how the Army can improve its management control
program for oversight of Army weapon system programs.

Background. This audit is the first in a series of audits that will evaluate the
effectiveness of the Military Departments’ management control programs in timely
identifying to the milestone decision authority deviations in cost, schedule, and
performance requirements in acquisition program baselines for Acquisition Category II
and III programs and in identifying whether program managers are reporting their status
on preparing and obtaining approval of required program documentation to milestone
decision authorities before milestone decision reviews. Subsequent audits will assess the
Navy and Air Force management control programs for oversight of Acquisition
Category II and III programs.

Results. The Army did not effectively integrate the requirements of the DoD
Management Control Program into its management assessment and reporting process for
10 Acquisition Category II and III programs that had an estimated life-cycle cost of
$10.6 billion. As a result, program managers did not provide milestone decision
authorities with timely and documented information that would have enabled them to
assist program managers who were experiencing cost overruns, schedule delays, and
performance problems. Further, Army milestone decision authorities made important
program decisions at milestone decision points with incomplete information on the
readiness of the systems for the next phase of the acquisition process. To ensure that
Army milestone decision authorities make informed investment decisions, the Army
needs to establish a reporting requirement for Acquisition Category II and III program
managers to report, at least quarterly, their progress toward attaining cost, schedule, and
performance requirements in acquisition program baselines and preparing and obtaining
required program documentation before milestone decision reviews. Implementation of
this reporting requirement will enable Army milestone decision authorities to ensure that
program managers are on schedule toward satisfying program requirements, submitting
program deviation reports when required, and reporting deviations from acquisition
program baselines as material management control weaknesses. (See the Finding section
for details.)

Management Comments. A draft of this report was issued on October 17, 2003. The
Army Acquisition Executive did not provide comments on the draft report. We request
that the Army Acquisition Executive comment on this report by February 23, 2004.
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objectives                                                                 3

Finding
     Army Management Control Program for Acquisition Category II and III
       Programs                                                            4

Appendixes
     A. Scope and Methodology                                              12
          Management Control Program Review                                13
     B. Prior Coverage                                                     15
     C. Management Control Objectives and Techniques                       16
     D. Program Documentation Status                                       18
     E. Report Distribution                                                23
Background
           This audit is the first in a series of audits that will evaluate the effectiveness of the
           Military Departments’ management control programs in timely identifying
           deviations in cost, schedule and performance requirements in acquisition program
           baselines (APB) for Acquisition Category II and III programs1 to the milestone
           decision authority (MDA) and in identifying whether program managers are
           preparing and obtaining required program documentation before milestone
           decision reviews. DoD Instruction 5000.2, “Operation of the Defense Acquisition
           System,” May 12, 2003, defines Acquisition Category II programs as major
           systems with an estimated total expenditure for research, development, test, and
           evaluation of less than $365 million but more than $140 million, or for
           procurement, of less than $2.19 billion but more than $660 million in FY 2000
           constant dollars. DoD Instruction 5000.2 defines an Acquisition Category III
           program as any program that does not meet the minimum requirements for an
           Acquisition Category II program. Subsequent audits will assess the Navy and Air
           Force management control programs for oversight of Acquisition Category II and
           III programs.

           Secretary of the Army Emphasizes Management Control Process. The
           Secretary of the Army stressed the importance of management controls in a
           February 25, 2002, memorandum on stewardship and the Army management
           control process. The Secretary emphasized that the Army management controls
           promote the wise use of resources and deter fraud, waste, and abuse. The
           Secretary stated that to obtain the resources that are necessary to maintain a
           world-class army, the Army must convince the Congress that it is a good steward
           of the public’s tax dollars and that effective management controls are essential to
           gaining that trust. The Secretary went on to say that commanders and managers
           at all levels must understand the importance of evaluating controls objectively
           and sharing the results. The Secretary asked the Army leadership to stress the
           importance of effective management controls to their mission, ensure that their
           staffs understand their responsibilities in the process, and demand integrity in
           reporting management control problems and the actions taken to resolve them.
           Management Control Policy. Management controls are the organization,
           policies, and procedures that agencies use to ensure that programs achieve their
           intended results; resources are used consistent with an organization’s mission;
           programs and resources are protected from fraud, waste, and mismanagement;
           laws and regulations are followed; and reliable data are obtained, maintained,
           reported, and used for program decision making. Many statutes and executive
           documents either explicitly or implicitly address the importance of management
           controls. Further, the DoD and the Army issued guidance to implement the
           requirements of Office of Management and Budget (OMB) Circular A-123,
           “Management Accountability and Control,” June 21, 1995.


1
    An acquisition category determines an acquisition program’s level of review, decision authority, and
    applicable procedures. The acquisition categories consist of I, major Defense acquisition programs; IA,
    major automated information systems; II, major systems; and III, programs not meeting the criteria for
    acquisition categories I, IA, or II.



                                                       1
        Federal Policy. OMB Circular A-123 requires DoD to provide an overall
annual statement to the President and Congress explaining the state of DoD
management controls, any control weaknesses, and noncompliant accounting
systems. The Secretary of Defense is required to state whether DoD management
controls provide reasonable assurance that resources are being protected from
fraud, waste, and mismanagement. Circular A-123 provides guidance for
establishing, evaluating, improving, and reporting on management controls in
programs and administrative organizations, and requires that all management
levels be involved in ensuring that management controls are adequate. Further, it
directs that executive organizations establish cost-effective management control
systems to provide reasonable assurance that resources are protected against
fraud, waste, and mismanagement and that program activities be effectively and
efficiently managed to achieve the goals of the organization. Circular A-123 also
states that Federal managers must carefully consider the appropriate balance of
controls in their programs and operations. Appropriate management controls
should be established and integrated into each system to direct and guide
operations. However, Circular A-123 notes that a separate management control
process need not be instituted, particularly if its sole purpose is to satisfy
management control reporting requirements.

        DoD Policy. To satisfy the OMB requirement, DoD Directive 5010.38,
“Management Control (MC) Program,” August 26, 1996, requires that the
Military Departments, the Defense agencies, and the major joint commands
submit annual statements on their management controls to the Secretary of
Defense. There are no exemptions for acquisition programs. DoD
Directive 5010.38 also provides policy, prescribes procedures, and assigns
responsibilities for management control systems. DoD Directive 5000.1, “The
Defense Acquisition System,” May 12, 2003, requires program managers to
establish program goals for cost, schedule, and performance parameters that
describe the program over its life cycle. Directive 5000.1 further states that
approved program baseline parameters will serve as control objectives, and that
the program manager is required to identify deviations from approved program
baseline parameters and exit criteria. Further, the DoD Interim Defense
Acquisition Guidebook states that the program manager should identify
deviations from the approved program baseline parameters and exit criteria as
material weaknesses.
        Army Policy. Army Regulation 11-2, “Army Programs Management
Control,” August 1, 1994, implements public law and OMB and DoD guidance
for a management control process, and requires Army commanders and managers
to establish and maintain effective management controls and to keep their
superiors informed of identified risks and weaknesses in those controls.

Scope of Army Programs Surveyed. To perform the audit, we requested that
seven Army Program Executive Offices identify for our review one Acquisition
Category II and one Acquisition Category III system that were beyond the
concept and technology development phase, but that had not received approval
for full-rate production. The Acquisition Category II systems identified included
the Advanced Precision Kill Weapon System, the Firefinder/Phoenix, the Line-of-
Sight Anti-tank, and the Tactical Unmanned Aerial Vehicle. The Acquisition
Category III systems identified included the Containerized Batch Laundry


                                    2
    System, the Improved Position and Azimuth Determining System, the Mobile
    Tower System, the Multi-Temperature Refrigerated Container System, the
    Prophet System, and the Tactical Internet Management System.


Objectives
    The overall audit objective was to evaluate the effectiveness of the management
    control program that the Army Acquisition Executive, or his designees, used for
    Army Acquisition Category II and III weapon systems. We also assessed the
    process for recognizing and correcting material management control weaknesses.
    See Appendix A for a discussion of the scope and methodology and the review of
    the management control program. See Appendix B for prior coverage related to
    the objectives. Appendix C defines management control objectives and
    techniques. Appendix D summarizes the status of certain program documentation
    prepared for the 10 programs reviewed.




                                       3
            Army Management Control Program for
            Acquisition Category II and III Programs
            The Army did not effectively integrate the requirements of the DoD
            Management Control Program into its management assessment and
            reporting process for 10 Acquisition Category II and III programs that had
            an estimated life-cycle cost of $10.6 billion. This condition occurred, in
            part, because the Army did not have a reporting mechanism in place for
            program managers to inform MDAs, at least quarterly, of their progress
            toward:

               •   satisfying cost, schedule, and performance requirements in APBs;
                   and
               •   obtaining, preparing, updating, and issuing approved program
                   documentation before and at planned milestone decision reviews.

            The program managers need that documented information to effectively
            manage their programs. However, program managers contributed to this
            condition by not reporting program deviations and not requesting
            revisions to APBs when cost, schedule, and performance breaches
            occurred. As a result, program managers did not provide MDAs with
            timely and documented information so they could assist program
            managers who were experiencing cost overruns, schedule delays, and
            performance problems. Further, MDAs made important program
            decisions at milestone decision points with incomplete information on the
            readiness of the systems for the next phase of the acquisition process.


Army Management Control Programs
    The Army did not effectively integrate the requirements of the DoD Management
    Control Program into its management assessment and reporting process for
    10 Acquisition Category II and III programs that had an estimated life-cycle cost
    of $10.6 billion. Effective October 1, 1994, the Office of the Assistant Secretary
    of the Army (Financial Management and Comptroller) restructured the Army
    management control process from a heavily centralized program to a
    decentralized program. The Assistant Secretary intended the restructured process
    to reduce workload and promote ownership and accountability for effective
    management controls by:

        •   limiting required evaluations to key management controls,

        •   providing maximum flexibility to commanders and managers on how they
            conduct those evaluations, and

        •   raising the level of responsibility for certifying those evaluations.




                                          4
     The Army’s senior functional proponents determine and identify in their
     governing policy directives the management controls that the Army managers
     must evaluate. Commanders and managers develop management control plans to
     cover the required evaluations as well as the additional areas that they choose to
     evaluate over a 5-year period. The processes used to evaluate the key
     management controls may include checklists, audits, inspections, or other
     reviews deemed appropriate by the commanders and managers. Also,
     commanders and managers designate which senior officials, generally colonels,
     civilian equivalents, or above, will act as the assessable unit managers
     responsible for certifying those evaluations. The Army identified management
     control assessable units as Program Executive Offices, Program Management
     Offices, or Project Management Offices for Acquisition Category II and III
     programs.

     Army Regulation 70-1, “Army Acquisition Policy,” December 15, 1997,
     identifies milestone documentation requirements as the key management control
     for acquisition programs and the milestone decision review process as the
     evaluation of that control. Therefore, the Army relied on the milestone review
     process for assurance that management controls were in place. The Army’s
     process to evaluate management controls for acquisition programs did not,
     however, keep MDAs informed of program managers’ progress toward satisfying
     program requirements before milestone decision reviews. Accordingly, the
     Army’s management control program for acquisition programs did not ensure
     that program managers took the necessary actions to satisfy program cost,
     schedule, and performance requirements in the APBs before milestone reviews.
     The Army’s management control program also did not ensure that program
     managers reported deviations from APB cost, schedule, and performance
     parameters, or that those breaches were reported as material management control
     weaknesses to the Assistant Secretary of the Army (Financial Management and
     Comptroller).


Army Reporting Process
    Program managers for approximately 500 Army Acquisition Category II and III
    programs did not have a reporting mechanism to inform the MDA, at least
    quarterly, of their progress towards satisfying cost, schedule, and performance
    requirements in approved APBs and exit criteria requirements for the next phase
    of the acquisition process. Without a reporting mechanism in place, the Army
    cannot provide appropriate oversight for those programs. Although Acquisition
    Category II and III programs are valued lower than Acquisition Category I
    programs, the sheer number of Acquisition Category II and III programs
    contributes to a large aggregate total. The Army cannot calculate an aggregate
    value for all Acquisition Category II and III programs because that information is
    not captured by any of the Army systems, but the 10 programs reviewed had an
    estimated life-cycle cost of $10.6 billion. In an era of funding constraints, the
    Army needs to manage its investment dollars more wisely than ever and cannot
    afford to overlook the oversight of the Acquisition Category II and III programs.




                                         5
           The reporting process used by the Program Executive Officers did not require the
           program managers to report on their efforts to obtain, prepare, and update
           approved program documentation before planned milestone decision reviews.
           The program documentation is to be prepared and approved before milestone
           decision points, kept up-to-date between milestone decision reviews, and provide
           the MDA with the management control information required in DoD
           Directive 5000.1 to timely identify program deviations from approved program
           baseline parameters and exit criteria. As implemented, the Army’s management
           assessment and reporting processes did not provide MDAs with that management
           control information. To be effective, the Army’s management control program
           should integrate those management control requirements in its management
           assessment and reporting processes.

           Reporting on Cost, Schedule, and Performance Requirements. Program
           managers for major Defense acquisition programs are required to report quarterly
           on their progress towards satisfying cost, schedule, and performance
           requirements, including approved program baseline parameters and exit criteria
           requirements in the Defense Acquisition Executive Summary. However, the
           Army did not extend a similar reporting requirement to other acquisition
           programs until recently. In October 2002, the Army Acquisition Executive began
           requiring program managers for Acquisition Category II programs to submit
           monthly program status reports, but did not require program managers for
           Acquisition Category III programs to report periodically on their progress.

                   Reporting for Acquisition Category II Programs Reviewed. Program
           managers for the four Acquisition Category II programs reviewed prepared
           SmartCharts2 and three of the four program managers prepared monthly
           acquisition reports and monthly acquisition program review reports. One
           program manager had not yet prepared monthly acquisition reports and monthly
           acquisition program review reports because the project office personnel stated
           that the Department of Army had not tasked them to develop the reports.

                  Reporting for Acquisition Category III programs Reviewed. Program
           managers for three of the six Acquisition Category III programs reviewed
           provided SmartCharts, but the remaining program managers did not submit
           standardized monthly reports containing cost, schedule, and performance data to
           the MDAs.

           Adequacy of Reported Information. The monthly acquisition reports, monthly
           acquisition program review reports, and SmartCharts that the program offices
           prepared provided the MDA with up-to-date APB cost, schedule, and
           performance data, but did not, in most cases, provide the APB threshold values
           for the MDA to compare against. Without listing the APB thresholds together
           with the current program status, the MDA may not realize that the program is
           over budget or behind schedule. Additionally, the program office reports did not
           provide the MDA with information on whether the program would achieve the
           exit criteria established at the last milestone decision review. As a result,
           program managers did not provide the MDAs with management control

2
    A key element of the Acquisition Information Management client-server information and reporting
    system.



                                                      6
information required in DoD Directive 5000.1 to timely identify program
deviations from approved program baseline parameters and exit criteria.

Reporting on the Preparation and Completion of Required Program
Documentation. Program managers are not required to advise the MDA on their
progress towards completing and obtaining key program documentation, such as
the Operational Requirements Document (ORD), the APB, the Test and
Evaluation Master Plan (TEMP), and the Command, Control, Communications,
Computers, and Intelligence (C4I) support plan, before program initiation, which
is usually declared when a program enters the system development and
demonstration acquisition phase. Before program initiation and before
subsequent milestone reviews are approved, however, program managers are
required to provide those key program documents for the MDA to review.

Program managers for all 10 programs held milestone reviews with MDAs for
entry into the system development and demonstration or production and
deployment phase of the acquisition process before preparing, updating, or
obtaining all required documentation. For example, the Assistant Secretary of the
Army (Acquisition, Technology, and Logistics) approved the Tactical Unmanned
Aerial Vehicle to enter the full rate production and deployment phase of the
acquisition process in October 2002, even though the program manager did not
have an approved C4I support plan, although the APB identified C4I
interoperability as a key performance parameter, and had not obtained a statement
of operational effectiveness, an affordability assessment, and a system evaluation
report. The C4I support plan was subsequently approved on May 13, 2003.
Because the program manager did not have an approved C4I support plan,
contract requirements defining all the key system interfaces with other systems
may not have been identified and provided to the system contractor.

Documentation that was not available to MDAs at milestone reviews varied
significantly among the programs reviewed. For instance, program managers for
two programs did not have an approved ORD, program managers for five
programs did not have an approved TEMP, and program managers for three
programs did not have an approved C4I support plan available at their previous
milestone review. Without an approved ORD that contains validated system
performance requirements, the program manager and contractor cannot be sure
that the system design will meet warfighter-required capabilities, and the test
community does not have validated performance parameters for developmental
and operational testing. An approved TEMP is an essential tool for the program
manager and operational testers to identify resources needed to perform necessary
tests to test all key performance parameters and resolve problem areas. The C4I
support plan is critical not only for system design, but for test organizations to
identify system integration issues that need to be addressed during testing.
Although acquisition regulations encourage management to streamline and tailor
acquisition documentation requirements, the ORD, the TEMP, and the C4I
support plan must be prepared and completed to provide the MDA with
information needed to assess how well a program is progressing toward the next
milestone review in the acquisition process.

Updating Program Documentation Between Milestone Decision Reviews.
Additionally, program managers did not provide MDAs with updated program


                                    7
documentation between milestone decision reviews when significant changes
affected programs because they believed that updating program documentation
added no value to the process if MDAs were made aware of the changes through
other means. For example, the Mobile Tower System experienced significant cost
and schedule deviations, but the program manager did not submit a program
deviation report to document the effect on the program and to request the
approval of a revised APB. Instead, the program manager verbally communicated
the information concerning the cost and schedule breaches to the MDA. Program
managers need to document significant changes to program direction in cost,
schedule, and performance requirements so that all parties affected by the
changes, including the intended user of the system and the test community, can
plan and react accordingly. Updating formal program documentation is essential
to ensure that the program manager evaluates the effect of the changes on all
aspects of the program.

Appendix D describes the completeness of program documentation available at
milestone decision reviews for the 10 programs reviewed. Without having all
required program documentation, the program manager and MDA may not be
aware of potential or actual cost, schedule, and performance problems affecting
the program at the time of the milestone decision review. For example, the
Mobile Tower System experienced schedule delays and cost overruns after the
milestone decision review because the test community required more system
testing than originally planned. Because the TEMP was not completed and fully
reviewed within the test community, the program manager’s estimates on the time
and resources needed for testing at the milestone decision review were unrealistic.

If program managers had formally reported delays in the completion or approval
process for key program documents, such as the ORD and the TEMP, to the
MDAs, the MDAs could have initiated actions to make sure that the
documentation was prepared, updated, and approved before the milestone
decision reviews, or they could have rescheduled the milestone decision reviews
pending the completion of required program documentation. Because program
managers were not periodically reporting their status toward completing or
obtaining required program documentation, MDAs did not have information
needed to take appropriate actions before the milestone decision reviews for the
10 programs reviewed. However, MDAs also were not requesting information on
the status of program documentation from program managers before program
milestone reviews. MDAs interviewed identified extenuating circumstances why
they approved acquisition programs for which they were responsible to continue
to the next phase of the acquisition process without having the necessary program
documentation available. The pervasiveness of this condition, that is, the MDAs
for all 10 acquisition programs reviewed had extenuating circumstances for
approving the programs to continue into the next phase of the acquisition process,
reinforces the need for program managers to periodically report to MDAs on their
status toward having the completed program information available for upcoming
milestone decision reviews.

Program Deviation Reporting Requirements. In addition to not routinely
reporting on program status towards satisfying program cost, schedule, and
performance parameters in APBs, program managers for four acquisition
programs did not submit revised APBs to the MDA within 90 days of when a


                                     8
    breach of APB parameters occurred. Reporting program deviations is an essential
    communication between the program managers and MDAs because it serves as an
    early warning of impending program complications and allows the MDA to help
    with a program solution. If program managers do not submit revised APBs, the
    program deviations can go unnoticed by the MDA while the program manager
    attempts to bring the program back into control.

    Also, program managers were not reporting breaches of APB parameters as
    material management control weaknesses as required in DoD Directive 5000.1
    and the DoD Interim Guidebook. In one instance, the product manager for the
    Tactical Internet Management System did prepare a program deviation report and
    requested a revision of the APB parameters; however, the program manager did
    not report the breach as a material management control weakness as required. As
    a result, the FY 2002 statements of assurance prepared by the Assistant Secretary
    of the Army (Acquisition, Technology, and Logistics) and the Program Executive
    Offices did not identify material management control weaknesses for five of the
    Army acquisition programs reviewed.


Effect of Management Control Techniques on Program
  Documentation
    Program documentation is the primary means for providing the MDA, as well as
    other key managers, with information needed for decision making. Without
    accurate and updated program documents, such as the APB, the ORD, the TEMP,
    and the C4I support plan, and the program manager’s periodic reporting on
    progress made toward satisfying those requirements, the program manager cannot
    provide assurance to the MDA that cost, schedule, and performance thresholds in
    the APB are being achieved and that the program is affordable. Without this
    information, program managers and MDAs did not have documented information
    needed for program management and oversight, and MDAs did not have
    information needed to assist program managers who were experiencing program
    cost overruns, schedule delays, and performance problems. Further, MDAs did
    not have the information they needed at milestone decision points to make
    informed program decisions on the readiness of the systems to continue into the
    next phase of the acquisition process.


Ongoing Management Action
    The Army is developing a new database called the Acquisition Information
    Enterprise System. The system will encompass the following initiatives:

       •   a virtual Army Systems Acquisition Review Council to standardize the
           process of preparing, coordinating, and staffing program documentation;

       •   an APB module to provide a centralized holding place for all unclassified
           APBs;



                                        9
       •   acquisition program portfolios to facilitate decision making by providing
           program information tailored to the user’s needs;

       •   monthly acquisition reports, monthly acquisition program review reports,
           and SmartCharts to provide monthly information on program status;

       •   Defense Contract Management Agency assessments to evaluate the
           overall health of the program; and

       •   a probability-of-success metric to indicate how well a program is
           delivering the required capability within approved cost and schedule
           parameters.

    The system will predominantly be used for Acquisition Category I and II
    programs. Although the system will provide a single location to obtain
    information on the status of program documentation and currently approved APB
    parameters, it will not provide the MDA with a comparison of current cost,
    schedule, and performance parameters to approved APB parameters in a single
    document. As indicated in the finding paragraph, the Army also needs a reporting
    system for program managers of Acquisition Category III programs to report on
    their progress toward satisfying the APB parameters.


Conclusion
    The management control program for Army Acquisition Category II and III
    programs varied depending upon the commitment of the program management.
    However, even in those instances in which the Army management had well-
    defined systems for reporting on assessable units, assessments concerning various
    aspects of the system acquisition process for programs were issued only once
    every 5 years. Those assessments did not provide useful and timely management
    control information to MDAs on the program manager’s progress toward
    satisfying cost, schedule, and performance parameters in APBs, which are the
    control objectives for acquisition programs established in DoD Directive 5000.1.

    Techniques to achieve control objectives also exist in the preparation and
    presentation of key documents such as the APB agreement, earned value
    management data, and operational test reports. Accordingly, establishing an
    Army reporting requirement for Acquisition Category II and III programs that is
    patterned after the Defense Acquisition Executive Summary would provide Army
    MDAs with management control information to implement the requirements in
    DoD Directive 5000.1 and would satisfy the management control reporting
    requirements in DoD Directive 5010.38.

    Although the new Acquisition Information Enterprise System will correct some of
    the conditions identified in the finding paragraph, the Army Acquisition
    Executive should consider implementing the following recommendations when
    developing or modifying existing Army automated reporting systems.




                                       10
Recommendations
    1. We recommend that the Army Acquisition Executive establish a reporting
    requirement for program managers of Acquisition Category II and III programs to
    report to the milestone decision authority, at least quarterly, on their progress
    towards satisfying cost, schedule, and performance parameters in approved
    program baselines, satisfying exit criteria for the next phase in the acquisition
    process, and obtaining and preparing key program documentation, such as the
    operational requirements document; the test and evaluation master plan; and the
    command, control, communication, computers, and intelligence support plan
    between and for milestone decision reviews.

    2. We recommend that Army Program Executive Officers:

            a. Use information in the program manager’s progress report discussed in
    Recommendation 1. to require that program managers prepare program deviation
    reports when breaches of acquisition program baseline parameters occur.

            b. Report breaches of acquisition program baseline parameters and
    unattained program exit criteria as material management control weaknesses in
    the Army annual statements of assurance as required in DoD Directive 5000.1,
    “The Defense Acquisition System,” May 12, 2003, and DoD Directive 5010.38,
    “Management Control (MC) Program,” August 26, 1996.

    Management Comments. The Army Acquisition Executive did not comment on
    the recommendations. We request that he provide comments in response to the
    final report.




                                       11
Appendix A. Scope and Methodology
           To perform the audit, we selected the seven Program Executive Offices based on
           there being more than one Program Executive Office located at a geographic site,
           such as Redstone Arsenal. The remaining five Program Executive Offices were
           not co-located at geographic sites with other Program Executive Offices. We
           requested that each select for our review one Acquisition Category II system and
           one Acquisition Category III system that were beyond the concept and technology
           development phase, but had not entered the production and deployment phase of
           the acquisition process. Because some Program Executive Offices did not have
           programs that met our criteria, we reviewed the following 10 Army acquisition
           programs that the Program Executive Offices identified:

           Program Executive Office Aviation
               •    Tactical Unmanned Aerial Vehicle1
               •    Mobile Tower System2
           Program Executive Office Air and Missile Defense
               •    No programs met our criteria
           Program Executive Office Combat Support and Combat Service Support
               •    Multi-Temperature Refrigerated Container System2
               •    Containerized Batch Laundry System2
           Program Executive Office Command, Control, and Communications Tactical
               •    Tactical Internet Management System2
           Program Executive Office Ground Combat Systems
               •    Improved Position and Azimuth Determining System2
           Program Executive Office Intelligence, Electronic Warfare and Sensors
               •    Firefinder/Phoenix1
               •    Prophet2
           Program Executive Office Tactical Missile
               •    Advanced Precision Kill Weapon System1
               •    Line-of-Sight Anti-tank1

1
    Acquisition Category II.
2
    Acquisition Category III.



                                               12
    In reviewing the management control process used by the Army for Acquisition
    Category II and III programs, we examined FY 2002 management control
    documentation. That documentation included management control-related
    taskings from the Assistant Secretary of the Army (Financial Management and
    Comptroller), the Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology), and the Army Program Executive Offices; Army annual statements
    of assurance; and supporting documentation. We reviewed those documents to
    identify whether a standardized procedure was in place to complete and submit
    the required documentation and to determine whether the Army had identified any
    material management control weaknesses for Army Acquisition Category II and
    III programs.

    To evaluate the reporting process used by the Army to support its management
    control of acquisition programs, we reviewed documentation dated from August
    1994 through August 2003. The documentation included acquisition decision
    memorandums; APBs; acquisition strategy reports; affordability assessments;
    analyses of alternatives; C4I support plans; programmatic environmental safety
    and health evaluations; ORDs; and TEMPs for the 10 Army programs selected for
    review. We reviewed those documents to ensure that the required program
    documentation for each program was complete, accurate, and up-to-date.

    We performed this audit from January through October 2003 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapons Systems Acquisition high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD policy, acquisition managers are to use program cost, schedule, and
    performance parameters as control objectives in APBs to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to program cost, schedule, and performance
    in APBs. We also reviewed the adequacy of management’s self-evaluation of
    those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Army, as defined in DoD Instruction 5010.40. The


                                       13
Army Acquisition Executive and the Program Executive Officers did not ensure
that controls for obtaining, preparing, updating, and approving program
documentation and preparing program deviation reports were sufficient to ensure
that program managers timely provided MDAs with acquisition program
documentation needed to effectively oversee a program’s cost, schedule, and
performance data at and between milestone decision reviews.
Recommendations 1. and 2., if implemented, will improve the quality and
timeliness of program information provided to Army MDAs so that they can
make fully informed investment decisions. A copy of the report will be provided
to the senior official responsible for management controls in the Army.

Adequacy of Management’s Self-Evaluation. The seven Program Executive
Offices visited identified Program Executive Offices and project or program
offices as assessable units; however, none of the Program Executive Offices,
project offices, or program offices reviewed identified a material management
control weakness related to preparing and updating required acquisition program
documentation used for program oversight and decision making. The Program
Executive Officers and project or program managers did not report those
weaknesses because they did not recognize the lack of up-to-date documentation
as a material management control weakness.




                                   14
Appendix B. Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense
     (IG DoD) and the Army Audit Agency issued seven reports that discussed
     material management control weaknesses in the acquisition programs selected for
     this audit or that discussed the Army management control process for Acquisition
     Category II and III programs.

IG DoD
     IG DoD Report No. D-2003-051, “Development Testing of Prophet Mission-
     Critical Software,” January 22, 2003
     IG DoD Report No. D-2002-012, “Acquisition of the Firefinder (AN/TPQ-47)
     Radar,” October 31, 2001

Army Audit Agency
     Report No. A-2003-0054-FFG, “Review of The Army Management Control
     Process (Fiscal Year 2002), An Assessment for the Secretary of the Army,”
     November 13, 2002

     Report No. AA 02-123, “Review of the Army Management Control Process
     (Fiscal Year 2001), An Assessment for the Secretary of the Army,” January 8,
     2002

     Report No. AA 01-56, “Review of the Army Management Control Process (Fiscal
     Year 2000), An Assessment for the Secretary of the Army,” November 6, 2000

     Report No. AA 00-58, “Review of the Army Management Control Process (Fiscal
     Year 1999), An Assessment for the Secretary of the Army,” November 4, 1999
     Report No. AA 99-44, “Review of the Army Management Control Process (Fiscal
     Year 1998), An Assessment for the Secretary of the Army,” November 5, 1998




                                        15
Appendix C. Management Control Objectives
            and Techniques
   Control Objectives. Control objectives are the specific goals, conditions, or
   levels of control that a manager establishes for an assessable unit to provide
   reasonable assurance that the resources assigned to that organization are
   adequately safeguarded against waste, fraud, and mismanagement.

   Control objectives must be identified for each organization and should be logical,
   applicable, reasonably complete, and tailored to an agency’s operations, which
   means that the control objectives should be the positive effects that management
   tries to attain or the negative effects it seeks to avoid through adherence to
   established management controls.

   For Army acquisition programs, basic control objectives involve the program
   office’s ability to adhere to a weapon system’s cost, schedule, and performance
   baseline parameters that are embodied in APBs. The program manager updates
   and the MDA approves the APB at milestone reviews. As weapon systems
   progress through the acquisition process, baseline parameters are refined and the
   level of detail evolves at succeeding milestone reviews. The program manager
   identifies minimum acceptable requirements for each baseline parameter, known
   as thresholds. Values for APB parameters show the system’s cost and
   performance characteristics as they are expected to be produced and fielded, as
   well as critical acquisition schedule events. If those minimum acceptable levels
   or thresholds are not met, the MDA may require a reevaluation of alternative
   concepts or design approaches.

   Program exit criteria are also control objectives for Army acquisition programs.
   Exit criteria are the specific minimum requirements that a system must
   satisfactorily demonstrate before the MDA will consider approving the system for
   transitioning to the next acquisition phase.
   Control Techniques. Control techniques are mechanisms by which control
   objectives are achieved. A control technique is any form of organization,
   procedure, or document flow that is relied on to accomplish a control objective
   and help safeguard or protect an organization from fraud, waste, and
   mismanagement. Control techniques include, but are not limited to, specific
   policies, procedures, plans of organization (including separation of duties), and
   physical arrangements (such as locks and fire alarms). Management control
   techniques are to continually provide a high degree of assurance that the
   management control objectives are being achieved.

   For Army acquisition programs, the milestone review documentation specified in
   DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
   2003, provides control techniques to achieve the control objectives. The
   management control techniques in the Instruction include the documents in the
   following table.




                                        16
                                      Management Control Techniques

           Control Technique      Objective(s) Controlled            Prepared By         Submitted To

           APB Agreements         Cost, schedule, and                Program Manager     MDA
                                  performance baselines
           C4I Support Plan       C4I support requirements to        DoD Component       MDA
                                  satisfy the development,
                                  testing, training, and
                                  operational employment of the
                                  system
           Earned Value           Reports the progress of the        Contractor          Program Manager
           Management Data        program in meeting cost
                                  parameters
           ORD                    Translates mission needs into      DoD Component       Service
                                  detailed performance
                                  capabilities and characteristics
           Operational Test       Reports on the progress of the     Independent Test    Program Manager
           Reports                program in meeting                 Agency
                                  performance parameters
           TEMP                   Major elements and objectives      Program Manager     Director,
                                  of the test and evaluation                             Operational Test
                                  program                                                and Evaluation1
                                                                                         and MDA

           DoD Directive 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, requires system documentation to be maintained for
           management control programs. System documentation includes the policies and
           procedures, organizational charts, manuals, flow charts, and related written and
           graphic materials necessary to describe organizational structure, operating
           procedures, and administrative practices to communicate responsibility and
           authority for accomplishing programs and activities. This type of management
           control documentation is in DoD Instruction 5010.40.




1
    The Director, Operational Test, and Evaluation approves the TEMP for all test and evaluation oversight
    programs in the Office of the Secretary of Defense.




                                                      17
Appendix D. Program Documentation Status
   DoD Instruction 5000.2 identifies mandatory program documents that program
   managers must provide at program milestone reviews. The DoD Interim Defense
   Acquisition Guidebook explains the importance of the acquisition program
   documents. The following table shows for five mandatory acquisition program
   documents whether the program managers for the 10 programs reviewed provided
   the MDA with the completed and approved documents at the acquisition
   program’s last milestone decision review.

                     Mandatory Program Documentation Provided

                                                        Programmatic
                                                        Environmental
                                C4I                       Safety and
                               Support                      Health
       Program      APB         Plan            ORD       Evaluation    TEMP
       APKWS1        Yes         Waiver         No           Yes        Yes
       CBL2          Yes          N/A3          Yes          No         Yes
       IPADS4        Yes          N/A           Yes          No          No
       MTRCS5        Yes          N/A           Yes          No         Yes
       MOTS6         Yes           No           Yes          Yes        No
       LOSAT7        Yes           Yes          Yes         N/A          No
       Phoenix       Yes           No           Yes         N/A          No
       Prophet       No            Yes          Yes          No         Yes
       TIMS8         Yes           Yes          No          N/A          No
       TUAV9         Yes           No           Yes          Yes        Yes

   1
     Advanced Precision Kill Weapon System
   2
     Containerized Batch Laundry
   3
     Not Applicable
   4
     Improved Position and Azimuth Determining System
   5
     Multi-Temperture Refrigerated Container System
   6
     Mobile Tower System
   7
     Line-of-Sight Anti-tank
   8
     Tactical Internet Management System
   9
     Tactical Unmanned Aerial Vehicle




                                           18
Importance of Milestone Documents
    Acquisition Program Baseline. Every acquisition program must have an APB at
    program initiation. The program manager prepares the APB in coordination with
    the user to document the most important cost, schedule, and performance
    parameters (both threshold and objective) for the program. The program manager
    bases the APB on user performance requirements, schedule requirements, and an
    estimate of total program cost. The program manager, in coordination with the
    user, should obtain approval for a revised APB if the program is restructured or if
    there is an unrecoverable program deviation.

    C4I Support Plan. DoD Components must develop C4I support plans for all
    programs early in the acquisition process when the Components connect in any
    way to the communication and information infrastructure. Acquisition decision
    makers are required to review the C4I support plan at each program milestone
    decision; at decision reviews, as appropriate; and whenever support requirements
    change. A C4I support plan assists in identifying system integration issues that
    need to be addressed during testing. Additionally, a C4I support plan assists
    testers in identifying potential system integration issues that will need to be
    tested.

     Operational Requirements Document. The ORD is a formatted statement
     containing performance parameters for the proposed concept or system that is
     prepared by the user or the user’s representative. An ORD provides the
     developmental and operational testers with the ability to determine whether the
     system meets minimum required system capabilities.

    Programmatic Environmental Safety and Health Evaluation. The program
    manager is to initiate the evaluation at the earliest possible time in support of a
    program initiation decision and maintain an updated evaluation throughout the
    life cycle of the program. When program managers perform the analyses for the
    programmatic environmental safety and health evaluation, they gain information
    on the potential environmental, safety, and health effects of developing, fielding,
    storing, demilitarizing, and disposing of their weapon systems. Information
    should be obtained before the program enters the system development and
    demonstration phase to prevent program delays and added program costs
    stemming from the violation of environmental, safety, or health laws.

    Test and Evaluation Master Plan. The TEMP documents the overall structure
    and objectives of the test and evaluation program. It provides a framework within
    which to generate detailed test and evaluation plans and to document schedule
    and resource implications associated with the test and evaluation program. The
    TEMP identifies necessary developmental test and evaluation, operational test
    and evaluation, and live-fire test and evaluation activities. An approved TEMP is
    an essential tool for the program manager and operational testers to identify
    resources needed to perform necessary tests and to test all key performance
    parameters and resolve problem areas.




                                         19
Program Documentation Status
    Advanced Precision Kill Weapon System. The Program Executive Officer,
    Tactical Missiles approved Block I of the Advanced Precision Kill Weapon
    System to enter the system development and demonstration phase of the
    acquisition process on December 20, 2002. At program initiation, the program
    did not have an ORD. In August 2002, because of an immediate need for a low
    cost, air-to-ground capability, the Deputy Chief of Staff for Operations and Plans
    issued a memorandum that validated the Advanced Precision Kill Weapon System
    Block I requirements for rocket seeker development instead of preparing an ORD.
    In September 2003, the Director of Combat Developments, U.S. Army Aviation
    Center was developing an ORD for the Advanced Precision Kill Weapon System
    that addressed the performance requirements needed to achieve Blocks I, II, and
    III. The project office estimated the completion of the ORD by December 15,
    2003.

    Containerized Batch Laundry System. The Program Executive Officer,
    Combat Support and Combat Service Support approved the Containerized Batch
    Laundry System to enter the system development and demonstration phase of the
    acquisition process at program initiation on July 3, 2002. The August 7, 2000,
    ORD stated that the Containerized Batch Laundry System would meet industry
    and Government safety and health standards; however, the product office did not
    prepare a programmatic environmental safety and health evaluation to support the
    ORD assessment for the Containerized Batch Laundry System. A programmatic
    environmental safety and health evaluation was approved on August 29, 2003.

    Improved Position and Azimuth Determining System. The Program Executive
    Officer, Ground Combat Systems approved the Improved Position and Azimuth
    Determining System to enter the system development and demonstration phase of
    the acquisition process at program initiation on December 30, 2002, subject to the
    completion of updates to the cost estimate, the program schedule, and the TEMP
    before the program office could award the development contract. The MDA
    approved updates to those documents on July 24, 2003, and awarded the contract
    on July 25, 2003. At the December 2002 milestone decision review, the program
    office also did not have a programmatic environmental safety and health
    evaluation for review. Instead of preparing a programmatic environmental safety
    and health evaluation at the time of the review, the product office included plans
    to implement system safety, health, and environmental compliance in various
    program documents. The product office plans to complete the programmatic
    environmental safety and health evaluation before the production and deployment
    milestone decision review in May 2004.

    Multi-Temperature Refrigerated Container System. The Program Executive
    Officer, Combat Support and Combat Service Support approved the Multi-
    Temperature Refrigerated Container System to enter the system development and
    demonstration phase of the acquisition process at program initiation on
    January 31, 2003. A programmatic environmental safety and health evaluation
    had not been prepared at that time. The project office was unaware of the
    programmatic environmental safety and health evaluation requirement for the
    Multi-Temperature Refrigerated Container System until after the milestone


                                        20
decision review package had already been staffed. Since related information was
contained within other program documents, the environmental safety and health
officer did not require the project office to go back and create a programmatic
environmental safety and health evaluation. The project office did, however,
develop a System Safety Program/Health Hazard Assessment Management Plan
dated July 2002, but had not performed the planned assessment.

Mobile Tower System. The Deputy for Systems Acquisition, U.S. Army
Aviation and Missile Command approved the Mobile Tower System to enter
Phase I, program definition and risk reduction phase of the acquisition process on
November 27, 2000. The Deputy later saw the opportunity to capitalize on the
efforts of other Services to move the program more rapidly through the program
definition and risk reduction phase. On November 14, 2001, the Deputy directed
the project manager to procure a modified Air Force Tower Restoral Vehicle,
perform and complete necessary developmental tests and limited user tests of the
modified Tower Restoral Vehicle, and complete other requirements and
documents needed to support a production decision. The Program Executive
Officer for Aviation approved the TEMP on August 22, 2003, almost 2 years after
the decision to proceed with the development of the modified Tower Restoral
Vehicle. As of October 2003, no C4I support plan had been prepared.
Additionally, in November 2002, the program manager prepared program cost
and schedule estimates that showed that the APB parameters for cost and
schedule had been breached. As of October 2003, the project manager had not
prepared a program deviation report or proposed an APB update to the MDA.
The project manager stated that he verbally notified the MDA of cost and
schedule deviations, and he would brief the MDA of any changes to the APB after
he determined the necessary revisions to technical cost and schedule parameters.

Line-of-Sight Anti-tank System. On September 29, 2000, the Program
Executive Officer, Tactical Missiles delayed approval for the Line-of-Sight Anti-
tank to enter the engineering manufacturing development/advanced concept
technology demonstration plus phase until the ORD was completed and the
entrance criteria were discussed and updated. The Army Training and Doctrine
Command approved the ORD for the Line-of-Sight Anti-tank on January 8, 2001.
On January 19, 2001, the Program Executive Officer approved the program to
enter into the engineering manufacturing development and advanced concept
technology demonstration plus phase of the acquisition process before the
program manager submitted an approved TEMP. The Director, Operational Test
and Evaluation approved the TEMP on July 2, 2003. The DoD Interim
Guidebook states that within 90 days of a program deviation, the program should
be within established APB parameters or a new APB should be approved. The
project office was aware that the APB threshold date for the first unit equipped
could not be achieved, but stated they would update the APB for the production
milestone decision review that is scheduled for FY 2004.

Phoenix Battlefield Sensor System. The Phoenix system evolved from the
Firefinder pre-planned product improvement effort. The Program Executive
Officer, Intelligence, Electronic Warfare, and Sensors approved the Firefinder to
enter the engineering and manufacturing development phase of the acquisition
process on November 13, 1997, without a C4I support plan for MDA review. As
of October 2003, the product office was still developing a TEMP and a C4I


                                    21
support plan. In December 2002, the Firefinder was renamed the Phoenix and the
program baseline was revised in January 2003. The MDA approved the revised
APB on June 13, 2003. Even though the design requirements for the Phoenix had
significantly changed since the ORD was approved in September 1996, the Army
Deputy Chief of Staff for Operations and Plans did not update the ORD with the
revised system performance, cost, and schedule requirements.

Prophet Signals Intelligence and Electronic Warfare System. The Program
Executive Officer, Intelligence, Electronic Warfare, and Sensors approved the
Prophet program to enter the system development and demonstration phase of the
acquisition process at program initiation on February 10, 2003. At that time, the
project office did not submit a programmatic environmental safety and health
evaluation for MDA review. The MDA approved the APB on April 27, 2003.
Project office personnel stated that the programmatic environmental safety and
health evaluation would be completed before the production and deployment
milestone review planned for January 2005.

Tactical Internet Management System. On June 18, 2001, the Acting Program
Executive Officer, Communications, Control, and Communication Tactical
approved the Tactical Internet Management System to enter the production and
deployment phase of the acquisition process, which allowed the procurement and
limited deployment of approximately 79 systems. At the milestone decision
review, the product office did not have an approved ORD or an approved TEMP
for MDA review. The Department of the Army approved the ORD on May 30,
2002. The product office was still awaiting TEMP approval from the Office of
the Secretary of Defense in October 2003. Because the December 2001 initial
operational test and evaluation was downgraded to a limited user test, the product
manager submitted a program deviation report to the MDA in June 2002. A
breach in the program schedule and program cost occurred because the initial
operational test and evaluation was not conducted. Further, the conversion of the
required operational capabilities document to an ORD in May 2002 caused a
breach of program performance requirements and program costs in the APB.

The initial operational test and evaluation of the system, rescheduled for April
through June 2003, was postponed because of the Iraq conflict. As of
October 2003, the product office had not submitted a program deviation report or
a revised APB for MDA review and approval. Additionally, the Tactical Internet
Management System life-cycle cost estimate, dated May 31, 2001, which was
prepared for the production and deployment milestone review, expired on May
30, 2002. The product office provided an updated life-cycle cost estimate dated
July 2003.

Tactical Unmanned Aerial Vehicle. The Assistant Secretary of the Army
(Acquisition, Technology, and Logistics) approved the Tactical Unmanned
Aerial Vehicle to enter the full-rate production and deployment phase of the
acquisition process in October 2002. At the full-rate production milestone
decision review, the program manager did not have an approved C4I support
plan, and had not obtained a statement of operational effectiveness, an
affordability assessment, and a system evaluation report. The C4I support plan
was approved on May 13, 2003.



                                    22
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Acquisition, Technology, and Logistics)
Assistant Secretary of the Army (Financial Management and Comptroller)
  Program Executive Officer, Aviation
      Program Manager, Tactical Unmanned Aerial Vehicle
         Product Manager, Mobile Tower System
  Program Executive Officer, Air and Missile Defense
  Program Executive Officer, Combat Support and Combat Service Support
      Product Manager, Multi-Temperature Refrigerated Container System
      Product Manager, Containerized Batch Laundry System
  Program Executive Officer, Command, Control, and Communications Tactical
      Product Manager, Tactical Internet Management System
  Program Executive Officer, Ground Combat Systems
      Product Manager, Improved Position and Azimuth Determining System
  Program Executive Officer, Intelligence, Electronic Warfare and Sensors
      Product Manager, Firefinder/Phoenix
      Product Manager, Prophet
  Program Executive Officer, Tactical Missile
      Product Manager, Advanced Precision Kill Weapon System
      Product Manager, Line-of-Sight Anti-tank
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        24
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     John E. Meling
     Susan J. Lippolis
     Amy L. Mathews
     Michael T. Burger
     Lidet K. Negash
     Jacqueline N. Pugh
     Ann A. Ferrante
